Capital Case
No. _________________________________

IN THE SUPREME COURT OF THE UNITED STATES

JAMES DWIGHT PAVATT,
Petitioner/Applicant,
v.
TOMMY SHARP, Interim Warden,
Oklahoma State Penitentiary,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE TENTH CIRCUIT

PETITIONER’S APPLICATION FOR EXTENSION OF TIME
TO FILE PETITION FOR A WRIT OF CERTIORARI

SARAH M. JERNIGAN, OBA # 21243*
PATTI PALMER GHEZZI, OBA # 6875
Assistant Federal Public Defenders
Office of the Federal Public Defender
Western District of Oklahoma
215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102
405-609-5975 (phone)
405-609-5976 (fax)
Sarah_Jernigan@fd.org
Patti_Ghezzi@fd.org
ATTORNEYS FOR JAMES DWIGHT PAVATT
September 6, 2019

* Counsel of Record

PETITIONER’S APPLICATION FOR EXTENSION OF
TIME TO FILE PETITION FOR A WRIT OF CERTIORARI
To the Honorable Sonia Sotomayor, Associate Justice of the United States Supreme Court
and Circuit Justice for the Tenth Circuit:
In accordance with Rules 13.5, 22, 30.2, and 30.3 of the Rules of the Supreme Court
of the United States, and for the reasons set forth herein, Petitioner/Applicant, James Dwight
Pavatt, respectfully applies to this Court for an order extending the time in which to file his
petition for a writ of certiorari from September 25, 2019, until November 25, 2019, a period
of sixty (60) days. In support of this Application, Petitioner shows the Court as follows:
BACKGROUND
Mr. Pavatt is incarcerated under a conviction of First Degree Murder for which he has
been sentenced to death. On July 2, 2018, the United States Court of Appeals for the Tenth
Circuit issued an amended nunc pro tunc opinion in Case No. 14-6117, wherein the circuit
court affirmed in part and denied in part the original judgment entered by the United States
District Court for the Western District of Oklahoma in Case No. CIV-08-470-R. See Opinion
attached hereto as Attachment 1. Respondent sought rehearing, and the Tenth Circuit Court
of Appeals granted en banc rehearing on October 2, 2018. See Order attached hereto as
Attachment 2. On June 27, 2019, the United States Court of Appeals for the Tenth Circuit
issued a published opinion in Case No. 14-6117, wherein the circuit court, en banc, vacated
the prior panel opinion, affirmed the original judgment entered by the United States District
Court for the Western District of Oklahoma, and denied Mr. Pavatt’s request for additional
COA. See Opinion and Judgment, attached hereto as Attachment 3.
1

ARGUMENT AND AUTHORITIES
Petitioner now seeks a writ of certiorari to the United States Court of Appeals for the
Tenth Circuit with respect to its decision rendered on June 27, 2019, as referenced above.
This Court’s jurisdiction to grant the same arises pursuant to 28 U.S.C. §1254(1).
According to Supreme Court Rule 13.3, a petition for writ of certiorari to the United
States Court of Appeals for the Tenth Circuit is due on or before September 25, 2019. See
Supreme Court Rule 13.3 (“the time to file the petition for a writ of certiorari . . . runs from
the date of the denial of rehearing or, if rehearing is granted, the subsequent entry of
judgment”). However, the time granted by Supreme Court Rule 13 will be insufficient to
allow Petitioner’s counsel to do justice to the issues at hand, which are of vast import.
Therefore, Petitioner seeks an extension of sixty (60) days in which to file his petition for a
writ of certiorari. See Supreme Court Rule 13.5 (“[A] Justice may extend the time to file a
petition for writ of certiorari for a period not exceeding 60 days”).
In accordance with Supreme Court Rule 13.5, this Application is submitted at least
ten (10) days prior to the present due date. Further, the requested extension is made in good
faith and not for the purposes of delay. Indeed, the requested extension is made because of
the vital importance associated with the issues at hand – the right to a fair and reliable
sentence.1 This Court has repeatedly emphasized that “our duty to search for constitutional
error with painstaking care is never more exacting than it is in a capital case.” Burger v.

1

No execution date has been set. Thus, an extension of time will not create an
unreasonable delay in the administration of justice.
2

Kemp, 483 U.S. 776, 785 (1987). It is respectfully submitted that counsel’s duty to present
all authorized claims of constitutional error with painstaking care is of equal or greater
import. Thus, it is important that counsel be granted additional time to research the
constitutional issues at hand so that counsel may prepare Mr. Pavatt’s petition with the care
and accuracy demanded of such cases.
Mr. Pavatt’s counsel, Sarah M. Jernigan and Patti P. Ghezzi, are Assistant Federal
Public Defenders with the Capital Habeas Unit of the Office of the Federal Public Defender
for the Western District of Oklahoma. The division’s exclusive responsibility is to represent
clients who have been sentenced to death in the state of Oklahoma and who have exhausted
all of their state appeals. Both counsel are presently lead or co-counsel for the federal
representation of multiple death row inmates including Mr. Pavatt. Obligations on behalf of
many of these clients have precluded counsel from being able to direct their full time and
attention to the preparation of a petition of a writ of certiorari on Petitioner’s behalf.
Therefore, even if counsel exercise due diligence and give priority to preparing the petition,
it will not be possible to file the petition on time without compromising cases.
In light of counsel’s current obligations and the importance of the constitutional issues
that will be presented in this capital case, counsel submit that a sixty (60) day extension is
necessary and appropriate in order to efficiently and effectively prepare the petition for
certiorari on Mr. Pavatt’s behalf.

3

WHEREFORE, in the interest of justice and for good cause shown, counsel submit
that a reasonable extension of time should be granted to complete Mr. Pavatt’s petition.
Counsel respectfully request this Court extend the current September 25, 2019 deadline until
November 25, 2019.

Respectfully submitted,
s/ Sarah M. Jernigan
SARAH M. JERNIGAN, OBA # 21243*
PATTI PALMER GHEZZI, OBA # 6875
Assistant Federal Public Defenders
Office of the Federal Public Defender
Western District of Oklahoma
215 Dean A. McGee, Suite 707
Oklahoma City, OK 73102
405-609-5975 (phone)
405-609-5976 (fax)
Sarah_Jernigan@fd.org
Patti_Ghezzi@fd.org
ATTORNEYS FOR JAMES DWIGHT PAVATT
* Counsel of Record

4

